TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Information From State Tax Amnesty
                        Programs Could Bolster Compliance
                            Efforts and Ensure Federal
                           Tax Obligations Are Also Met



                                         September 2005

                              Reference Number: 2005-30-165




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 26, 2005


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION



 FROM:                       Pamela J. Gardiner
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Information From State Tax Amnesty Programs
                             Could Bolster Compliance Efforts and Ensure Federal Tax Obligations
                             Are Also Met (Audit # 200530007)

 This report presents the results of our review to evaluate the effectiveness of the Internal
 Revenue Service’s (IRS) use of information from the State tax amnesty programs. We will
 address the benefits and risks of implementing a Federal tax amnesty program in a subsequent
 review.

 Synopsis
 Tax amnesty programs are held to collect taxes owed from prior years and to place those who
 previously avoided taxation on the tax rolls. Over the past 23 years, at least 41 States and
 2 cities have collected over $5.7 billion from tax amnesty programs. To encourage taxpayers to
 participate, these programs generally forgave all civil and criminal penalties. They differed as to
 whether all or a portion of the interest was forgiven.
 In summary, information obtained by States during their tax amnesty programs has not been used
 by the IRS as an ongoing tool to help ensure compliance with Federal tax laws. Consequently,
 the IRS is missing a unique opportunity to address noncompliant taxpayers who have
 acknowledged their noncompliance with tax laws to State governments and who also owe
 Federal taxes.
 The Commissioner, Small Business/Self-Employed (SB/SE) Division, recognized the potential
 value of State tax amnesty information as a tool to supplement IRS enforcement information and
 efforts. As a result, the SB/SE Division established a team to study the potential usefulness of
                                   Information From State Tax Amnesty
                                Programs Could Bolster Compliance Efforts
                              and Ensure Federal Tax Obligations Are Also Met


State tax amnesty information. The study found that 16 of 20 States that responded to a national
survey would be willing to share tax amnesty information with the IRS. However, sharing of
State tax amnesty information was generally not addressed within the IRS’ existing
Implementing Agreements with the States.1
Although the IRS study included considerable analysis of the tax amnesty data for individual
taxpayers from two States, it did not fully explore the benefits of this information and its
usefulness in IRS compliance programs. The study concluded that (1) the State tax amnesty
information would not be effective in identifying unknown nonfilers or in discovering
underreported income and (2) another planned FedState initiative, the Reverse Filing Match,2
would yield the same information in an automated environment. The study did not address
business taxpayers that participated in the State tax amnesty programs.
Our audit found the State tax amnesty information could be used effectively to bolster IRS
efforts for improving compliance. We reviewed a sample of tax amnesty information from
2 States in which 24,723 individuals and 13,682 businesses participated. Our sample of income
tax returns filed by 170 individuals and 149 corporations that participated in tax amnesty
programs of the 2 States had the following characteristics:
     •   Thirty-five Federal tax returns were not filed by 18 individuals. Ten of these
         18 individuals reported over $5.5 million in Federal taxable income on 20 tax returns
         filed with 1 State.3 The IRS received Information Returns for 17 of the 20 tax returns
         due from these 10 individuals. However, 13 of the 17 State tax returns reported over
         $2.6 million more in Federal taxable income than was reported to the IRS on Information
         Returns.4 The remaining 8 taxpayers in the other State reported over $1.2 million in
         gross income on 15 tax returns filed.5 Twelve of the 15 tax returns reported almost
         $700,000 more in gross income than was reported to the IRS on Information Returns.




1
  An Implementing Agreement is an agreement that complements the basic Agreement on Coordination of Tax
Administration executed by the IRS and a State tax agency and contains more detailed information.
2
  Under the Reverse Filing Match, the IRS will obtain State extracts and match them against the IRS’ databases to
identify taxpayers that are Federal nonfilers.
3
  See Appendix I, Step IV. A. for sample details.
4
  Information Returns are documents filed by payers and employers to report amounts paid to or received by
individuals. The IRS uses Information Returns to determine those with the best potential for substantial net tax due,
in selecting nonfiler cases to work. When the tax return cannot be secured from the taxpayer, it is prepared using
these Information Returns. Information Returns are also prepared for corporations but are often not required for
corporate payees.
5
  See Appendix I, Step IV. C. for sample details.
                                                                                                                    2
                                      Information From State Tax Amnesty
                                   Programs Could Bolster Compliance Efforts
                                 and Ensure Federal Tax Obligations Are Also Met



       •    Fifty-two Federal tax returns were not filed by 31 corporations. Twenty-three
            corporations filed 35 tax returns with 1 State, reporting net income of over $670,000.6
            The IRS received Information Returns for 6 of the 35 tax returns, but net income
            reported to the State exceeded amounts reported to the IRS by approximately $82,000.
            The remaining 8 corporations filed 17 tax returns with the second State, paying a total of
            approximately $37,000 in State income taxes.7 The State’s tax amnesty database did not
            provide the IRS with the amount of income reported. The IRS received Information
            Returns for only 3 of these tax returns, and total income reported on these Information
            Returns was only $57,913.
We believe the IRS study’s conclusion that the Reverse Filing Match would yield State tax
amnesty information was premature. This Match and the means to automate it are still in the
testing stage.
The IRS should fully use State tax amnesty information to ensure taxpayers also meet their
Federal tax obligations. Some States conducting tax amnesty programs advised taxpayers that
information disclosed by the taxpayer may be shared with the IRS. These taxpayers, who did not
file Federal tax returns even though they were aware of their filing obligations, warrant special
attention.

Recommendations
We recommended the Commissioner, SB/SE Division, evaluate the current FedState exchange
programs to determine whether State tax amnesty information will be obtained through the
Reverse Filing Match or any other current program. If so, the Commissioner, SB/SE Division,
should determine whether tax returns filed during State tax amnesty programs can be identified
as such for use in IRS compliance programs. If not, the Commissioner should seek agreements
with the States to separately obtain all State tax amnesty information. Not only should the data
be used to supplement IRS compliance information, but IRS compliance programs should place
emphasis on ensuring these taxpayers meet their Federal tax obligations.

Response
The Commissioner, SB/SE Division, agreed with our recommendations. The office of
Governmental Liaison and Disclosure (GLD) has established a multidivisional task team to
determine whether the State tax amnesty information will be obtained through the Reverse Filing


6
    See Appendix I, Step IV. D. for sample details.
7
    See Appendix I, Step IV. B. for sample details.
                                                                                                     3
                              Information From State Tax Amnesty
                           Programs Could Bolster Compliance Efforts
                         and Ensure Federal Tax Obligations Are Also Met


Match or any other current FedState program. The team will analyze the State tax amnesty
information to determine the best way to use the information in support of IRS compliance
efforts from the perspective of both individual and business taxpayers. If the State tax amnesty
information will not be obtained through a current FedState program, the office of GLD will
determine the best method of requesting tax amnesty information from the States willing to share
this information with the IRS.
The multidivisional task team will review the State tax amnesty information and explore
systemic methods to leverage benefits, including matching against Federal filings, comparing to
current Federal nonfilers, and determining the potential source of collection asset information.
The National Fraud Program Office will assist in identifying potential fraud cases for appropriate
action. Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Curtis Hagan,
Assistant Inspector General for Audit (Small Business and Corporate Programs), at
(202) 622-3837.




                                                                                                 4
                                        Information From State Tax Amnesty
                                     Programs Could Bolster Compliance Efforts
                                   and Ensure Federal Tax Obligations Are Also Met




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          State Tax Amnesty Information Has Not Been Used As an
          Ongoing Tool to Help Ensure Compliance With Federal Tax Laws............Page 2
                    Recommendations 1 through 3:...........................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – State Tax Amnesty Programs...............................................Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 18
                                   Information From State Tax Amnesty
                                Programs Could Bolster Compliance Efforts
                              and Ensure Federal Tax Obligations Are Also Met




                                            Background

Tax amnesty programs are held to collect taxes owed from prior years and to place those who
previously avoided taxation on the tax rolls. Over the past 23 years, at least 41 States and
2 cities have collected over $5.7 billion from tax amnesty programs. To encourage taxpayers to
participate, these programs generally forgave all civil and criminal penalties. They differed as to
whether all or a portion of the interest was forgiven.
We have included a breakdown of the State tax amnesty programs provided by the Federation of
Tax Administrators and supplemented with information from individual States’ web sites in
Appendix IV.1
The original objective of this review was to evaluate the Internal Revenue Service’s (IRS) use of
information from the State tax amnesty programs and to assess the potential benefits and risks of
implementing a Federal tax amnesty program. Upon initiation of the audit, it became clear that
we needed to concentrate on the effectiveness of the IRS’ use of the information from State tax
amnesty programs in IRS compliance efforts. We will address the benefits and risks of
implementing a Federal tax amnesty program in a subsequent review.
This review of the IRS National Headquarters, Office of Communications and Liaison, in
Washington, D.C., was performed primarily at the office of the Treasury Inspector General for
Tax Administration in Holtsville, New York. Fieldwork was performed during the period
February through June 2005.
The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




1
  The Federation of Tax Administrators is an association of all tax agencies in the 50 States, the District of
Columbia, and New York, New York. Its mission is to improve the quality of State tax administration by providing
research and information exchange, training, intergovernmental and interstate coordination and by representing the
interests of State tax administrators before Federal policymakers when appropriate.
                                                                                                           Page 1
                                 Information From State Tax Amnesty
                              Programs Could Bolster Compliance Efforts
                            and Ensure Federal Tax Obligations Are Also Met




                                   Results of Review

State Tax Amnesty Information Has Not Been Used As an Ongoing
Tool to Help Ensure Compliance With Federal Tax Laws

Information obtained by States during their tax amnesty programs could be used effectively to
bolster IRS compliance efforts. This information has not been used by the IRS as an ongoing
tool to help ensure compliance with Federal tax laws. Consequently, the IRS is missing a unique
opportunity to address noncompliant taxpayers who have acknowledged their noncompliance
with tax laws to State governments and who also owe Federal taxes.
The mission of the Small Business/Self-Employed (SB/SE) Division Communications, Liaison,
and Disclosure function includes partnering with Federal, State and local governmental agencies
to increase compliance, enforcement, and service to taxpayers. The Commissioner, SB/SE
Division, recognized the potential value of State tax amnesty information as a tool to supplement
IRS enforcement information and efforts. As a result, the SB/SE Division established a team to
study the potential usefulness of State tax amnesty information. The team included
representatives from the Nonfiler Program, Compliance Policy functions (campus and field),
Centralized Delivery and Workload Selection and Delivery function, office of Governmental
Liaison and Disclosure (GLD) (field), and External Liaison function staff. Although the study
included considerable analysis of the tax amnesty data for individual taxpayers from two States,
it did not fully explore the benefits of this information and its usefulness in IRS compliance
programs.

An SB/SE Division study concluded that State tax amnesty information would not
be effective in identifying nonfilers or underreported income

The first part of the SB/SE Division study was a national survey of States under Implementing
Agreements with the IRS to determine the extent to which the IRS already received State tax
amnesty information.2 The second phase of the study was to evaluate the data from two State tax
amnesty programs. The mission of the study was limited, however, to the identification of
previously unidentified nonfilers and underreporters. Also, the study did not address business



2
 An Implementing Agreement is an agreement that complements the basic Agreement on Coordination of Tax
Administration executed by the IRS and a State tax agency and contains more detailed information.
                                                                                                    Page 2
                                   Information From State Tax Amnesty
                                Programs Could Bolster Compliance Efforts
                              and Ensure Federal Tax Obligations Are Also Met



taxpayers that participated in the State tax amnesty programs. Only tax amnesty information for
individual taxpayers was evaluated during the study.
The IRS team compared the information for more than 2,500 unique tax amnesty participants
from the first State against the Case Creation Nonfiler Identification Process system and the
Discretionary Automated Examination system.3
The study found:
    •   Most States that responded to the national survey had not previously shared amnesty
        information with the IRS. Sixteen of 20 States that responded would be willing to share
        tax amnesty information with the IRS upon receipt of a valid written request.
    •   Sharing of State tax amnesty information was generally not addressed within existing IRS
        Implementing Agreements with the States.
    •   Only 2 of the tax amnesty participants were not included in the IRS nonfiler database,
        and 22 tax periods from these tax amnesty records were not previously identified and
        worked through normal IRS processes. Based on a sample selected to match income
        reported with Information Return Program income records,4 no underreporting was found
        using the State data.
    •   Tax amnesty information for individual taxpayers from the second State was similarly
        analyzed with the same conclusions.
Based on the review of the individual tax return data, the study concluded that:
    •   Making one-time requests for State tax amnesty information would not be effective in
        identifying unknown nonfilers or in discovering underreported income.
    •   Requesting and evaluating additional State tax amnesty information on a State-by-State
        basis did not appear to be the best use of scarce IRS resources since another FedState
        initiative, the Reverse Filing Match,5 would yield the same information in an automated
        environment.
The study recommended discontinuance of efforts to request and evaluate State tax amnesty
information using written requests on a State-by-State basis.


3
  The Case Creation Nonfiler Identification Process is a system that matches Information Return Program documents
(see footnote 4) with the taxpayer account information stored on the IRS database to seek out taxpayers that fail to
file tax returns. The Discretionary Automated Examination system is an EXCEL database that allows the automated
processing of return classification without ordering unnecessary returns.
4
  Information Returns are documents filed by payers and employers to report amounts paid to or received by
individuals. The Information Return Program processes these documents to an IRS file.
5
  Under the Reverse Filing Match, the IRS will obtain State extracts and match them against the IRS’ databases to
identify taxpayers that are Federal nonfilers.
                                                                                                           Page 3
                                   Information From State Tax Amnesty
                                Programs Could Bolster Compliance Efforts
                              and Ensure Federal Tax Obligations Are Also Met




Our review showed that tax amnesty information could be very useful

Our audit found the State tax amnesty information could be used effectively to bolster IRS
efforts for improving compliance. Individual taxpayers in 37 of the 43 States with an income tax
must calculate the Federal Adjusted Gross Income or Federal Taxable Income to complete their
State tax returns. Even in the other six States, where State income tax is computed independent
of the Federal Adjusted Gross Income or Federal Taxable Income, taxpayers attest to the
accuracy of “income” when they sign the State tax returns.
The IRS uses Information Returns (documents filed by payers and employers to report amounts
paid to or received by individuals, sole proprietors, partnerships, or corporations6) to determine
those with the best potential for substantial net tax due when selecting nonfiler cases to work.
When the tax return cannot be secured from the taxpayer, it is prepared using these Information
Returns.
We reviewed a sample of tax amnesty information from 2 States in which 24,723 individuals and
13,682 businesses participated. We found income reported by participants was often greater than
the amount that had been reported to the IRS on Information Returns. Our sample of income tax
returns filed by 170 individuals and 149 corporations that participated in the 2 State tax amnesty
programs had the following characteristics:
    •    Thirty-five Federal tax returns were not filed by 18 individuals. Ten of these
         18 individuals reported over $5.5 million in Federal taxable income on 20 tax returns
         filed with 1 State.7 The IRS received Information Returns for 17 of the 20 tax returns due
         from these 10 individuals. However, 13 of the 17 State tax returns reported over
         $2.6 million more in Federal taxable income than was reported to the IRS on Information
         Returns (see Figure 1). The remaining 8 taxpayers in the other State reported over
         $1.2 million in gross income on 15 tax returns filed.8 Twelve of the 15 tax returns
         reported almost $700,000 more in gross income than was reported to the IRS on
         Information Returns.




6
  Information Returns are often not required when the payee is a corporation.
7
  See Appendix I, Step IV. A. for sample details.
8
  See Appendix I, Step IV. C. for sample details.
                                                                                             Page 4
                                       Information From State Tax Amnesty
                                    Programs Could Bolster Compliance Efforts
                                  and Ensure Federal Tax Obligations Are Also Met




    Figure 1: Federal Taxable Income Reported to the State vs. Income Reported to
                           the IRS on Information Returns



     $1,400,000


     $1,200,000


     $1,000,000


       $800,000


       $600,000


       $400,000


       $200,000


              $0
                     1      2       3      4      5       6      7        8   9      10     11     12      13


                                                      To State   To IRS



                                State Tax Returns and IRS Information Returns

            Source: Tax amnesty information from one State. In our judgmental sample of income tax returns
            filed by 71 individual taxpayers under the tax amnesty program in 1 State, 10 taxpayers failed to
            file 20 tax returns to report over $5.5 million in Federal taxable income that was reported to the
            State. Thirteen of the 20 State tax returns (first column) reported over $2.6 million more in
            Federal taxable income than was reported to the IRS on Information Returns (second column).

       •   Fifty-two Federal tax returns were not filed by 31 corporations. Twenty-three
           corporations filed 35 tax returns with 1 State, reporting net income of over $670,000.9
           The IRS received Information Returns for 6 of the 35 tax returns, but net income reported
           to the State exceeded amounts reported to the IRS by approximately $82,000. The


9
    See Appendix I, Step IV. D. for sample details.
                                                                                                                Page 5
                                  Information From State Tax Amnesty
                               Programs Could Bolster Compliance Efforts
                             and Ensure Federal Tax Obligations Are Also Met



         remaining 8 corporations filed 17 tax returns with the second State, paying a total of
         approximately $37,000 in State income taxes.10 The State’s tax amnesty database did not
         provide the IRS with the amount of income reported. The IRS received Information
         Returns, reporting income of $57,913, for only 3 of these tax returns.
Information Returns filed with the IRS had reported minimal income for some of the taxpayer
accounts appearing in State tax amnesty information. This may have influenced the
determination of how the cases were worked. The outcome of the cases may have been different
had the State tax amnesty information been taken into consideration. For example:
     •   One taxpayer filed returns for several years under the State’s tax amnesty program but
         failed to file Federal tax returns for those tax years. Although the taxpayer reported
         income ranging from $8,000 to over $50,000 to the State, no Information Returns were
         filed with the IRS for those tax years and the IRS assessed no tax. The only Federal tax
         returns filed in over 10 years were prepared under the Substitute For Return program.11
         Also, the taxpayer’s last name and address reported to the State (and to the IRS on
         Information Returns in more recent years) are different from those shown on IRS records
         of the taxpayer’s account.
     •   The balance due in excess of $60,000 for another Federal tax return, prepared under the
         IRS Substitute For Return program, was determined to be uncollectible. No tax return
         has been filed by the taxpayer or spouse since that time. However, income reported to
         the State for several subsequent years was $30,000 to $180,000 higher than the amounts
         reported on the Information Returns (in this case Wage and Tax Statement (Form W-2))
         for the taxpayer and spouse.
Some taxpayers were listed in the State tax amnesty databases for multiple years. Furthermore,
some taxpayer accounts “previously identified and being worked through the Service’s [IRS’]
normal processes” had been identified 4 to 5 years ago yet remained unresolved 2 years after the
taxpayers participated in the State tax amnesty program.

The status of the Reverse Filing Match

The IRS team concluded that requesting and evaluating additional State tax amnesty information
on a State-by-State basis did not appear to be the best use of scarce resources since the Reverse
Filing Match would yield the same information in an automated environment. However, the
Reverse Filing Match, and the means to automate it, are still in the testing stage.


10
  See Appendix I, Step IV. B. for sample details.
11
  The Substitute For Return program deals with taxpayers who have not filed tax returns voluntarily and for whom
income information is available to substantiate a significant income tax liability.
                                                                                                         Page 6
                                   Information From State Tax Amnesty
                                Programs Could Bolster Compliance Efforts
                              and Ensure Federal Tax Obligations Are Also Met



Results of a limited test conducted in Fiscal Year 2004 were very positive, with over
$1.5 million in tax realized from approximately 300 tax returns for 1 State. In that test, the IRS
used copies of Federal tax returns attached to delinquent tax returns secured by the State to
encourage taxpayers to file. Tax returns were prepared for those who did not. Multiple-year
cases were referred to the Criminal Investigation function.
More extensive testing of the Reverse Filing Match has been initiated, but the results are not
available at this time. Potentially, the Reverse Filing Match will be a good use for the State tax
amnesty information. However, it is premature to expect this program to effectively use all of
the available tax amnesty information because it is still being tested and excludes the use of tax
amnesty information from businesses.

Benefits of using State tax amnesty information

Sometimes taxpayers file State tax returns without filing Federal tax returns because they do not
have the funds to pay both State and Federal taxes due. In addition, some risk suspension of
licenses or permits if they do not file with the State. The IRS is missing out on taxpayer
compliance information from the State tax amnesty programs that could prove very useful in its
own enforcement programs. Benefits include the following:
     •   Identification of income received by self-employed nonfilers that is not currently reported
         on Information Returns sent to the IRS.
     •   Identification of income received by small business corporations (S corporations),12
         where filing noncompliance is at an unacceptably high level. Failure to file might
         circumvent scrutiny of income both at the corporate level and for the individual
         shareholders.
     •   Availability of current addresses for taxpayers the IRS could not locate.
     •   Availability of tax amnesty information without having to incur the costs borne by the
         States, such as the waiving of penalties and interest, disruption to other programs, and
         many other expenses.13
For current and future State tax amnesty programs, the IRS needs to determine (1) whether
current FedState information exchanges and an IRS Reverse Filing Match will, in fact, capture
State tax amnesty information and (2) whether FedState agreements need to specifically address
the tax amnesty information.

12
  A corporation that can avoid the corporate tax by electing to be taxed in a manner similar to partnerships.
13
  For example, the State of New York waived over $100 million in penalties and interest on returns filed under its
2002-2003 tax amnesty program and spent over $16 million in expenses to bring in $527,479,783 (including known
accounts receivables).
                                                                                                           Page 7
                              Information From State Tax Amnesty
                           Programs Could Bolster Compliance Efforts
                         and Ensure Federal Tax Obligations Are Also Met



The IRS should fully use State tax amnesty information to ensure participants also meet their
Federal tax obligations. These are taxpayers that are admittedly noncompliant, often for multiple
years. Also, some of the States conducting tax amnesty programs advised taxpayers that
information disclosed by the taxpayers may be shared with the IRS. These taxpayers, who did
not file Federal tax returns even though they were aware of their filing obligations, warrant
special attention.


Recommendations

The Commissioner, SB/SE Division, should:
Recommendation 1: Analyze the current FedState exchange programs to determine whether
State tax amnesty information will be obtained through the Reverse Filing Match or any other
current program. If so, determine whether tax returns filed under State tax amnesty programs
can be identified as such for use in IRS compliance programs.
       Management’s Response: The office of GLD has taken the lead to establish a
       multidivisional task team to determine whether State tax amnesty information will be
       obtained through the Reverse Filing Match or any other current FedState program. If so,
       the team will determine if tax returns filed under the State tax amnesty programs can be
       identified as such and will analyze and evaluate State tax amnesty information to
       determine the best way to use the information in support of IRS compliance efforts from
       the perspective of both individual and business taxpayers.
Recommendation 2: Seek agreements with the States to separately obtain all State tax
amnesty information, if tax amnesty information is not obtained through current programs.
       Management’s Response: If the State tax amnesty information will not be obtained
       through the Reverse Filing Match or any other current FedState program, the office of
       GLD will determine the best method of requesting tax amnesty information from the
       States willing to share this information with the IRS. The method could be a specific
       request, a memorandum of understanding, or an addendum to Implementing Agreements
       with the States.
Recommendation 3: Supplement IRS compliance information with that from State tax
amnesty programs. Once State tax amnesty information is obtained, place emphasis on ensuring
these taxpayers also meet their Federal tax obligations.
       Management’s Response: The multidivisional task team led by the office of GLD
       will review the State tax amnesty information and explore systemic methods to leverage
       benefits, including matching against current Federal filings, comparing to current Federal
       nonfilers, and determining the potential source of collection asset information. In
       addition, the National Fraud Program Office will assist the multidivisional task team in

                                                                                            Page 8
                       Information From State Tax Amnesty
                    Programs Could Bolster Compliance Efforts
                  and Ensure Federal Tax Obligations Are Also Met



identifying and classifying potential fraud cases as a result of the analysis of State tax
amnesty program information and will take appropriate action in coordination with the
IRS operating divisions.




                                                                                      Page 9
                                   Information From State Tax Amnesty
                                Programs Could Bolster Compliance Efforts
                              and Ensure Federal Tax Obligations Are Also Met



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of the Internal Revenue
Service’s (IRS) use of information from the State tax amnesty programs. To accomplish this
objective, we:
I.      Determined whether the results of the State tax amnesty programs were shared with the
        IRS by contacting the IRS Communications and Liaison, Customer Liaison Branch, and
        reviewing the consolidation of responses by States to a national survey performed under
        the IRS’ study on the potential usefulness of State tax amnesty information.
II.     Determined why the IRS decided not to use this information by reviewing the testing and
        results of the IRS’ study on the potential usefulness of State tax amnesty information.
III.    Determined, where possible, the benefit yield of tax amnesty programs to the States
        through research of the Federation of Tax Administrators and State web sites.1
IV.     Evaluated whether the IRS could have used more information available from the States or
        obtained more benefits from the information obtained. We compared the tax amnesty
        data provided by two States against the IRS’ records of the taxpayers’ accounts and
        available Information Returns received by the IRS.2
        A. In 1 State that did not allow tax liabilities previously billed to be included in its tax
           amnesty program, 2,534 individual taxpayers filed 4,452 tax returns in the State tax
           amnesty program. We reviewed 89 tax returns reporting State tax in excess of
           $10,000 filed by 71 individual taxpayers. We researched the IRS records to
           determine whether a Federal tax return had been filed and if so, compared the Federal
           taxable income reported to the IRS against the amount reported to the State. If no
           Federal tax return had been filed, we researched IRS records for available
           Information Returns or Case Creation Nonfiler Identification Process (CCNIP)
           records.3



1
  The Federation of Tax Administrators is an association of all tax agencies in the 50 States, the District of
Columbia, and New York City. Its mission is to improve the quality of State tax administration by providing
research and information exchange, training, intergovernmental and interstate coordination and by representing the
interests of State tax administrators before Federal policymakers when appropriate.
2
  Information Returns are documents filed by payers and employers to report amounts paid to or received by
individuals. The Information Return Program processes these documents to an IRS file.
3
  The CCNIP is a system that matches Information Returns Program documents with the taxpayer account
information stored on the IRS database to seek out taxpayers that fail to file tax returns.

                                                                                                           Page 10
                       Information From State Tax Amnesty
                    Programs Could Bolster Compliance Efforts
                  and Ensure Federal Tax Obligations Are Also Met



   We also reviewed the information for other years (where the State tax was not in
   excess of $10,000) included in the State’s tax amnesty program for these taxpayers.
B. The tax amnesty data for this State included the State tax, but not the income, for
   115 corporate tax returns filed by 49 taxpayers under the State’s tax amnesty
   program. We researched the IRS’ records to determine whether the Federal corporate
   tax returns had been filed and whether the IRS had Information Returns available for
   the tax returns not filed.
C. For a second State that included accounts receivable in its tax amnesty program,
   22,189 individual taxpayers that participated in the State’s tax amnesty program filed
   31,790 State tax returns. We selected a random sample of 99 of 10,216 individual
   taxpayers participating in the State’s tax amnesty program who filed 14,839 tax
   returns reporting gross income in excess of $50,000 to the State. We did not include
   five tax returns that did not reflect a taxpayer identification number. We researched
   the IRS’ records for the 167 tax returns (reporting any amount of income) included in
   the State’s tax amnesty program for these 99 individual taxpayers to determine
   whether a Federal tax return had been filed. If a Federal tax return had been filed, we
   compared the gross income reported to the State against the income reported to the
   IRS and attempted to determine the explanation for any differences. If a tax return
   had not been filed, we researched IRS records for Information Returns or the CCNIP
   records.
D. In this second State, 13,633 corporations participating in the tax amnesty program
   filed 25,354 corporate income tax returns. We selected a random sample of 100 of
   3,945 corporations that filed 5,975 income tax returns to report a positive income to
   the State. We researched the IRS’ records for the 153 tax returns included in the
   State’s tax amnesty program for these 100 corporate taxpayers to determine whether a
   Federal tax return had been filed. If no tax return had been filed, we researched the
   IRS’ records for available Information Returns.




                                                                                   Page 11
                             Information From State Tax Amnesty
                          Programs Could Bolster Compliance Efforts
                        and Ensure Federal Tax Obligations Are Also Met



                                                                              Appendix II

                 Major Contributors to This Report

Curtis W. Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Richard J. Dagliolo, Director
Robert K. Irish, Audit Manager
Dolores Castoro, Lead Auditor
Stephen A. Wybaillie, Senior Auditor




                                                                                       Page 12
                            Information From State Tax Amnesty
                         Programs Could Bolster Compliance Efforts
                       and Ensure Federal Tax Obligations Are Also Met



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications, Liaison, and Disclosure SE:S:CLD
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Small Business/Self Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 13
                          Information From State Tax Amnesty
                       Programs Could Bolster Compliance Efforts
                     and Ensure Federal Tax Obligations Are Also Met



                                                                              Appendix IV

                 State Tax Amnesty Programs

                             November 22, 1982 -- Present




                                                               ACCOUNTS COLLECTIONS
               TAX AMNESTY             MAJOR TAXES
      STATE                                                   RECEIVABLE                  NOTES
                 PERIOD                 COVERED                          ($ Millions) (a)
                                                               INCLUDED

ALABAMA        1/20/84 - 4/1/84              All                  No                3.2
ARIZONA       11/22/82 - 1/20/83              All                 No                6.0
               1/1/02 - 2/28/02          Ind. Income              No
              9/1/03 - 10/31/03            All (m)             Unknown             73.0
ARKANSAS      9/1/87 - 11/30/87              All                  No                1.7
              7/1/04 - 12/31/04              All               Unknown              0.8   (r)
CALIFORNIA    12/10/84 - 3/15/85         Ind. Income             Yes              154.0
                                            Sales                 No               43.0
              2/1/05 - 3/31/05     Income, Franchise, Sales    Unknown            188.0   (c)(r)
COLORADO      9/16/85 - 11/15/85             All                  No                6.4
               6/1/03 - 6/30/03              All               Unknown             18.4
CONNECTICUT   9/1/90 - 11/30/90              All                  Yes              54.0
              9/1/95 - 11/30/95              All                  Yes              46.2
               9/1/02 - 12/2/02              All               Unknown            109.0
FLORIDA        1/1/87 - 6/30/87          Intangibles              No               13.0
               1/1/88 - 6/30/88              All                  No                8.4   (b)
              7/1/03 - 10/31/03              All               Unknown             80.0
GEORGIA       10/1/92 - 12/5/92              All                  Yes              51.3
IDAHO         5/20/83 - 8/30/83          Ind. Income              No                0.3
ILLINOIS      10/1/84 - 11/30/84            All(n)                Yes             160.5
                   10/1/03 -                  All               Unknown           532.0
                   11/17/03




                                                                                      Page 14
                             Information From State Tax Amnesty
                          Programs Could Bolster Compliance Efforts
                        and Ensure Federal Tax Obligations Are Also Met




                                                     ACCOUNTS COLLECTIONS
                  TAX AMNESTY         MAJOR TAXES
       STATE                                        RECEIVABLE                  NOTES
                    PERIOD             COVERED                 ($ Millions) (a)
                                                     INCLUDED

IOWA             9/2/86 - 10/31/86        All           Yes              35.1
KANSAS            7/1/84 - 9/30/84        All           No                0.6
                 10/1/03 - 11/30/03       All           Yes              53.7
KENTUCKY         9/15/88 - 9/30/88        All           No              100.0
                  8/1/02 - 9/30/02        All           No              100.0
LOUISIANA        10/1/85 - 12/31/85       All           No                1.2
                 10/1/87 - 12/15/87       All           No                0.3
                 10/1/98 - 12/31/98       All          No (k)             1.3
                 9/1/01 - 10/30/01        All           Yes             173.1
MAINE            11/1/90 - 12/31/90       All           Yes              29.0
                 9/1/03 - 11/30/03        All         Unknown            37.6
MARYLAND          9/1/87 - 11/2/87        All           Yes              34.6   (d)
                 9/1/01 - 10/31/01        All           Yes              39.2
MASSACHUSETTS 10/17/83 - 1/17/84          All           Yes              86.5
              10/1/02 - 1/30/02           All           Yes              96.1
                 1/1/03 - 2/28/03         All           Yes              22.7   (c)(r)
MICHIGAN         5/12/86 - 6/30/86        All           Yes             109.8
                 5/15/02 - 6/30/02        All           Yes              81.9   (r)
MINNESOTA        8/1/84 - 10/31/84        All           Yes              12.1
MISSISSIPPI      9/1/86 - 11/30/86        All           No                1.0
                 9/1/04 - 12/31/04        All           No                7.9
MISSOURI         9/1/83 - 10/31/83        All           No                0.9
                 8/1/02 - 10/31/02        All           Yes              76.4
                 8/1/03 - 10/31/03        All           Yes              20.0
NEBRASKA         8/1/04 - 10/31/04        All           No                7.5
NEVADA            2/1/02 - 6/30/02        All         Unknown             7.3
NEW HAMPSHIRE    12/1/97 - 2/17/98        All           Yes              13.5
                 12/1/01 - 2/15/02        All           Yes              13.5
NEW JERSEY       9/10/87 - 12/8/87        All           Yes             186.5
                  3/15/96 - 6/1/96        All           Yes             359.0
                 4/15/02 - 6/10/02        All           Yes             276.9




                                                                            Page 15
                                     Information From State Tax Amnesty
                                  Programs Could Bolster Compliance Efforts
                                and Ensure Federal Tax Obligations Are Also Met




                                                                           ACCOUNTS COLLECTIONS
                         TAX AMNESTY              MAJOR TAXES
      STATE                                                               RECEIVABLE                  NOTES
                           PERIOD                  COVERED                           ($ Millions) (a)
                                                                           INCLUDED

NEW MEXICO             8/15/85 - 11/13/85              All (e)                  No                     13.6
                       8/15/99 - 11/12/99               All                     Yes                    45.0
NEW YORK               11/1/85 - 1/31/86                All (f)                 Yes                   401.3
                       11/1/96 - 1/31/97                 All                    Yes                   253.4
                       11/18/02 - 1/31/03                All                    Yes                   582.7
NEW YORK CITY  10/20/03 - 1/23/04                      All (o)                Yes (p)                  40.0      (c)(r)
NORTH CAROLINA 9/1/89 - 12/1/89                        All (g)                 Yes                     37.6
NORTH DAKOTA   9/1/83 - 11/30/83                        All                     No                      0.2
               10/1/03 - 1/31/04                                                                        6.9
OHIO                   10/15/01 - 1/15/02               All                     No                     48.5
OKLAHOMA               7/1/84 - 12/31/84           Income, Sales                Yes                    13.9
                       8/15/02 - 11/15/02              All (l)                  Yes                    38.8     (r)
PENNSYLVANIA           10/13/95 - 1/10/96                All                    Yes                   N.A.      (q)
RHODE ISLAND           10/15/86 - 1/12/87                All                    No                      0.7
                       4/15/96 - 6/28/96                 All                    Yes                     7.9
SOUTH CAROLINA         9/1/85 - 11/30/85                 All                    Yes                     7.1
                       10/15/02 - 12/2/02                All                    Yes                    66.2
SOUTH DAKOTA            4/1/99 - 5/15/99                All                     Yes                     0.5
TEXAS                   2/1/84 - 2/29/84               All (h)                  No                      0.5
                       3/11/04 - 3/31/04               All (h)                  No                    379.0     (r)
VERMONT                5/15/90 - 6/25/90                 All                    Yes                     1.0     (c)
VIRGINIA                2/1/90 - 3/31/90                 All                    Yes                    32.2
                        9/2/03 - 11/3/03                 All                    Yes                    98.3
WEST VIRGINIA          10/1/86 - 12/31/86                All                    Yes                    15.9
                       9/1/04 - 10/31/04                 All                  Unknown                  10.4
WISCONSIN              9/15/85 - 11/22/85                All                   Yes (i)                 27.3
                       6/15/98 - 8/14/98                 All                    Yes                    30.9
DIST. OF                7/1/87 - 9/30/87                 All                    Yes                    24.3
COLUMBIA               7/10/95 - 8/31/95                All (j)                 Yes                    19.5


  Source: The Federation of Tax Administrators with additional entries from individual State web sites made by the
  Treasury Inspector General for Tax Administration




                                                                                                           Page 16
                               Information From State Tax Amnesty
                            Programs Could Bolster Compliance Efforts
                          and Ensure Federal Tax Obligations Are Also Met


NOTES:

(a) Where applicable, figure includes local portions of certain taxes collected under the State tax
    amnesty program.
(b) Does not include intangibles tax and drug taxes. Gross collections totaled $22.1 million,
    with $13.7 million in penalties withdrawn.
(c) Preliminary figure.
(d) Figure includes $1.1 million for the separate program conducted by the Department of
    Natural Resources for the boat excise tax.
(e) The severance taxes, including the six oil and gas severance taxes, the resources excise tax,
    the corporate franchise tax, and the special fuels tax were not subject to amnesty.
(f) Availability of amnesty for the corporation tax, the oil company taxes, the transportation and
    transmissions companies tax, the gross receipts oil tax, and the unincorporated business tax
    restricted to entities with 500 or fewer employees in the United States on the date of
    application. In addition, a taxpayer principally engaged in aviation, or a utility subject to the
    supervision of the State Department of Public Service, was ineligible.
(g) Local taxes and real property taxes were not included.
(h) Texas does not impose a corporate or individual income tax. In practical effect, the amnesty
    was limited to the sales tax and other excise taxes.
(i) Waiver terms varied depending upon the date the tax liability was assessed.
(j) Does not include real property taxes. All interest was waived on tax payments made before
    July 31, 1995. After this date, only 50 percent of the interest was waived.
(k) Exception for individuals who owed $500 or less.
(l) Except for property and motor fuel taxes.
(m) All taxes except property, estate, and unclaimed property.
(n) Does not include the motor fuel use tax.
(o) All New York City (NYC) taxes administered by the NYC Department of Finance are
    covered except for Real Estate Tax. NYC Sales and Use Tax and NYC Resident Personal
    Income Tax also are not covered because they are administered by the New York State
    Department of Taxation and Finance.
(p) Taxpayers under audit as of March 10, 2003, are ineligible; taxpayers with an existing
    installment agreement are ineligible; taxpayers under criminal investigation are ineligible;
    and taxpayers party to an administrative or court proceeding must withdraw as a condition
    of amnesty.
(q) N.A. (not applicable): The amount collected is not available.
(r) The amount was inserted in the chart by the Treasury Inspector General for Tax
    Administration. Amounts were obtained from the State web site, where available. In some
    cases, the amounts were preliminary and not the final amount.


                                                                                             Page 17
             Information From State Tax Amnesty
          Programs Could Bolster Compliance Efforts
        and Ensure Federal Tax Obligations Are Also Met



                                                  Appendix V

Management’s Response to the Draft Report




                                                          Page 18
     Information From State Tax Amnesty
  Programs Could Bolster Compliance Efforts
and Ensure Federal Tax Obligations Are Also Met




                                                  Page 19
     Information From State Tax Amnesty
  Programs Could Bolster Compliance Efforts
and Ensure Federal Tax Obligations Are Also Met




                                                  Page 20
